                  Independent Review of the U.S . Department of State
                      Accounting ofFY 2012 Drug Control Funds
                           and Related Performance Report
                               AUD/FM-13-21 , February 6, 2013

        The Office of Inspector General (D IG) has reviewed the management assertions included
in the U.S. Department of State (Department) A ccounring alld AwhenticClliOI1 ofFY 2012 Drug
Control Funds and Related Performance Rep orl . This report was prepared by the Bureau of
Internationa l Narcotics and Law Enforcement Affai rs in accordance with the Office of National
Drug Control Policy's (ONDep) circular Drug Camra! Accounting, dated May 1,2007.
Department management is responsible for the assertions included in the report.

       ~iG's  review was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants. A review is substantiall y less in scope than
an examinat ion, the objective of which is the expression of an opinion on management's
assertions. Accordingly. we do not express such an opi ni on.

        Based on OIG's review, nothing came to OIG 's attention that caused it to believe that the
management assertions included in the report were not fairly stated, in all material respects,
based upon ONDep's circular Drug Control Accounting. However, we were unable to complete
our work and issue this report by the due date required by ONDep because the Bureau of
International Narcotics and Law Enforcement Affairs issued its final report after this deadline.

       This OIG report is intended solely for the infonnation and use of Department
management, ONDep, and the U.S . Congress, and it is not intended to be and should not be used
by anyone other than these speci fied parties.




Ilaroid W. Ge isel
Deputy Inspector General
